INTERIM REPORT ON AWARD-FEE CRITERIA
  FOR THE NATIONAL AIRSPACE SYSTEM
 IMPLEMENTATION SUPPORT II CONTRACT
        AND BRIDGE CONTRACT

       Federal Aviation Administration

         Report Number: FI-2008-027
        Date Issued: February 27, 2008
            U.S. Department of
                                                                    Memorandum
            Transportation
            Office of the Secretary
            of Transportation
            Office of Inspector General


Subject:   ACTION: Interim Report on Award-Fee Criteria                                       Date:    February 27, 2008
           for the National Airspace System Implementation
           Support II Contract and Bridge Contract
           Federal Aviation Administration
           Report Number FI-2008-027

  From:    Mark H. Zabarsky                                                                Reply to
                                                                                           Attn. of:   JA-60
           Assistant Inspector General
            for Acquisition and Procurement Audits
    To:    Vice President of Acquisition and Business Services,
            Federal Aviation Administration

            As part of our ongoing audit of the Use of Cost-Plus-Award-Fee (CPAF) contracts
            within the Department, we are issuing this interim report regarding the recent
            award of the Federal Aviation Administration’s (FAA) follow-on bridge contract
            for the National Airspace System Implementation Support II Contract (NISC II).
            The objectives of our audit are to determine whether: (1) award-fee plans
            established adequate criteria for evaluating contractor performance, and (2) the
            amount of award fees paid to contractors was adequately supported.1

            Our preliminary conclusions found that the award-fee plan for the current NISC II
            contract included vague evaluation criteria and did not link the criteria to the
            acquisition outcomes. We also found that FAA was planning to use the same
            award-fee plan criteria for the bridge contract that would result in similar,
            significant deficiencies. Additionally, contracting officials did not justify the cost-
            effectiveness of selecting a CPAF-type contract for the current contract or follow-
            on bridge contract. As such, FAA has no assurance that a CPAF-type contract is
            appropriate and more advantageous to the FAA. We discussed our preliminary
            conclusions with senior FAA acquisition officials before the bridge contract was
            awarded. As a result, FAA officials are taking actions to address some issues;
            however, immediate actions are needed to establish meaningful and measurable


            1
                This interim report does not address the second objective, which will be addressed in our Department-wide audit of
                 award fees.
                                                                                                                        2


performance criteria that are linked to acquisition outcomes for the bridge contract
award.

The ongoing NISC II contract 2 calls for a broad range of support for transition,
integration, and implementation of selected FAA Facilities and Equipment
programs identified within the Aviation System Capital Investment Plan. This
effort addresses thirteen broad functional areas and the statement of work lists
more than 350 examples of work efforts that may be performed. Task orders also
are broad or non-specific when identifying actual work requirements. On
February 21, 2008, FAA awarded the $234 million bridge contract, scheduled to
begin March 1, 2008, with the NISC II contractor. FAA used a CPAF-type
contract with about $18.2 million for award fees. FAA must provide a copy of the
performance evaluation plan 3 to the contractor within 30 days after issuance of the
first task order.

We performed this audit in accordance with generally accepted government
auditing standards as prescribed by the Comptroller General of the United States.
The details of our scope and methodology are presented as Exhibit A. The
information in this interim report will be included later in a report addressing
Department-wide CPAF contracting issues.


AWARD-FEE PLAN CRITERIA WERE TOO VAGUE AND NOT
LINKED TO DESIRED ACQUISITION OUTCOMES
FAA did not structure and implement the ongoing NISC II award-fee contract in a
way that effectively motivated the contractor to improve performance and achieve
acquisition outcomes—defined in terms of program costs, schedule, and
performance. Their award-fee plan did not include measurable factors needed to
adequately evaluate contractor performance and contained the following vague
criteria:

            ¾ Employing high quality, motivated personnel

            ¾ Providing quality documentation

            ¾ Providing high quality technical and administrative products (e.g.,
              program management reviews, briefings, planning charts, financial
              spreadsheets) and services.

2
    Contract Number DTFA01-04-C-00012, NISC II calls for purchasing hours of effort in accordance with individual
     task orders. The original contract called for about 12,000 staff years of effort during 10 years for an amount of more
     than $1 billion.
3
    The performance evaluation plan is the basis for determining the amount of award fee and includes the award-fee
     criteria to be considered under each area evaluated; the percentage of award fee, if any, available for each area; and
     the frequency of evaluation periods.
                                                                                                          3


The contracting officer’s rationale for this decision was that services could only be
described in general terms due to the variables inherent in the nature of the effort.
This resulted in an award-fee plan and criteria that did not address acquisition
outcomes, such as meeting cost and schedule goals. Establishing specific criteria
based on performance objectives would reduce the risk of unwarranted subjective
performance evaluations and ratings.

Evaluation criteria must emphasize the most important aspects of the program to
motivate the contractor to improve performance for each evaluation period.
Performance monitors cannot provide meaningful comments and evaluations using
non-critical or too-broadly-defined criteria. The effect of having evaluation criteria
without clearly defined metrics and outcomes could result in inflated contractor
performance evaluations and, consequently, inappropriately approved award fees.
For the current NISC II contract, FAA paid the contractor nearly the entire
available award fee (94 percent), amounting to about $42.6 million during the last
10 years, without assurance of whether the acquisition outcomes fell short of, met,
or exceeded expectations. Without indicating areas of emphasis or desired
outcomes, FAA does not have assurances that its contract objectives are being
met, nor does the contractor have motivation to perform the best possible job in
those areas deemed critical.


FAA HAS NO ASSURANCE THAT THE CONTRACT TYPE IS
APPROPRIATE
For the NISC II contract and the bridge contract, FAA contracting officials did not
justify the cost effectiveness of selecting a CPAF-type contract. Performance
evaluation on an award-fee contract requires greater effort and more resources
than other types of contracts because oversight is required to monitor and
document contractor performance. FAA’s Acquisition Management System
provides that a CPAF-type contract should only be used when the total value of
the contract is high enough to justify the additional administrative costs compared
to other contract types. Additionally, FAA issued an Award-Fee Contracting
Guide in September 2007 stating that before a CPAF contract is selected, a
contracting officer should perform a cost-benefit analysis of the expected benefits
versus the added administrative costs.

In 1993, and again in 1997, FAA contracting officials awarded a CPAF-type
contract to General Electric Aerospace and Lockheed Martin, respectively, for
NISC support services. 4 Contracting officials awarded the bridge contract to this
same contractor, who performed the work during the last 15 years, again as a
CPAF-type contract. There was little to no indication that contracting officials

4
    In 1993, Lockheed Martin acquired and held the NISC I contract through a series of company mergers.
                                                                                             4


explored whether all or part of this work could be suitable for a different contract
type more advantageous to the FAA. It is important that contracting officials
evaluate prior history data to mitigate the risk to the Government. Because FAA
did not perform a cost-benefit analysis and consider past history, we are not
convinced that a CPAF-type contract was the most appropriate contract type.
Even though the bridge contract was recently awarded and FAA acquisition
officials stated it was too late in the evaluation process to change the contract type,
we are recommending that FAA justify the use of award-fee contracts for all
future NISC contracts.


RECENT ACTIONS TO IMPROVE AWARD-FEE PLAN
There are lessons to be learned from the NISC II contract that FAA should apply
to the bridge contract and future NISC contracts. As such, we discussed the
problems cited in this report with senior FAA acquisition officials including the
Manager, Facility and Technology Services on January 25, 2008, and the Assistant
Chief Counsel, Acquisition and Commercial Law Division on February 1, 2008.
We also notified FAA’s Vice President of Acquisition and Business Services
about this issue on January 29, 2008.5 As a result, FAA acquisition officials are
addressing the following problems:

     • The NISC Program Management Office is revising its practices to more
       closely align with the goal of performance-based contracting.

            ¾ The Program Management Office will define contract goals and
              objectives that are performance-based.

            ¾ The contractor will be required to present a plan to accomplish those
              goals and objectives.

            ¾ FAA will include performance metrics in each applicable task order for
              incorporation into the award-fee process.

            ¾ The performance evaluation plan will have performance-based language
              incorporated 30 days following contract award.

            ¾ Engineering Technical Officers for the contract will receive training on
              developing new performance-based objectives and measurements and
              evaluating performance in April 2008.

As FAA’s management actions are ongoing at the time of this report, we cannot
evaluate the efficiency of these actions; however, we believe the results of these

5
    FAA’s planned corrective actions were provided via electronic mail, February 11, 2008.
                                                                                   5


actions will correct problems identified in this report. Implementing the planned
corrective actions will put approximately $18.2 million in expected award fees for
the bridge contract to better use by ensuring FAA’s contract objectives are being
met, and motivating the contractor to perform the best job in those areas deemed
critical by the FAA.


RECOMMENDATIONS
We recommend that the Vice President of Acquisition and Business Services,
FAA:

1. Direct the NISC Program Office to revise the award-fee plan of the NISC II
   bridge contract to more clearly identify measurable award-fee criteria for
   assessing contractor performance and link the criteria to the acquisition
   outcomes for the work to be accomplished.

2. Require the NISC Contracting Officer to reevaluate the contract type for future
   NISC procurement contracts and justify the use of an award-fee contract.


ACTIONS REQUIRED
In accordance with Department of Transportation Order 8000.1C, we would
appreciate receiving your written comments within 30 calendar days. FAA has
proposed planned actions that meet the intent of recommendation 1. We request
that you provide us a target date for completing these actions. If you concur with
recommendation 2, please indicate the specific action taken or planned and
provide the target date for completion. If you do not concur with the finding or
recommendations, please provide your rationale. You may provide alternative
courses of action that you believe would resolve the issues presented in this report.
Also, please comment whether you agree that the estimated $18.2 million in award
fees for the NISC II bridge contract could be put to better use by revising the
award-fee plan.

We appreciate the courtesies and cooperation of FAA representatives during this
audit. If you have any questions concerning this report, please call me at (202)
366-1496, or Terrence Letko, Program Director, at (202) 366-9917.

                                         #

cc:    Acting Federal Aviation Administrator
       Acting Senior Procurement Executive
       Martin Gertel, M-1
       Anthony Williams, ABU-100
                                                                                 6




EXHIBIT A. SCOPE AND METHODOLOGY
This audit is associated with our Department-wide audit of Use of Cost-Plus-
Award-Fee Contracts, Project Number 07F3011F000. We conducted this
performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.

To determine whether the NISC II and bridge contract award-fee plans were
adequately designed we reviewed:

   ¾ FAA’s guidance for award-fee contracts;

   ¾ Award-fee plans and criteria;

   ¾ Statements of work and deliverables for the contracts and selected task
     orders; and

   ¾ Fifteen performance evaluation reports used to measure the contractor’s
     performance against award-fee criteria.

We reviewed the acquisition plan for the bridge contract to determine whether
improvements could be made in the methods used for obtaining the NISC II
support services. We also interviewed FAA acquisition and program officials
regarding the award-fee plan and process and discussed the results of our findings
on NISC II and the bridge procurement with these officials.




Exhibit A. Scope and Methodology
                                                                             7




EXHIBIT B. MAJOR CONTRIBUTORS TO THIS REPORT

THE FOLLOWING INDIVIDUALS CONTRIBUTED TO THIS REPORT.



  Name                 Title                                    _____

  Mark H. Zabarsky             Assistant Inspector General for Acquisition
                                 and Procurement Audits

  Terry Letko                  Program Director

  Dormayne Dillard-Christian   Project Manager

  Narja Hylton                 Auditor

  Jean Diaz                    Writer/Editor




Exhibit B. Major Contributors to This Report
